USDOJ: US Attorney's Office - Northern District of Georgia
SEARCH THE SITE
HOME
ABOUT
About Our office
Mission Statement
Courthouse Information
FAQ
NEWS
MEET THE U.S. ATTORNEY
DIVISIONS
Criminal Division
Civil Division
Administration Division
Gainesville - Division Office
Newnan - Division Office
Rome - Division Office
COMMUNITY
Community Outreach
LECC
Information for Victims & Witnesses
Community Impact Statement
Community Outreach Speaker Request
CAREERS
CONTACT US
Home » News » Press Release
Company Settles Claims that it Deliberately Underpaid Workers
FOR IMMEDIATE RELEASE
July 10, 2014
ATLANTA  - Advanced Power & Lighting (âAPLâ) and two of the companyâs former  officers and/or employees, Richard Lee Robertson and Greg Piccione, have agreed  to pay a total of $780,000 to settle allegations that they deliberately  underpaid workers on several federally funded projects covered by the  Davis-Bacon Act, and then violated the False Claims Act by submitting false and  fictitious payroll records to conceal their conduct.Â
âThe  underlying False Claims Act lawsuit alleges that APL, Robertson and Piccione  deliberately took advantage of workers, at a time when they were most  vulnerable,â said United States Attorney Sally Quillian Yates.Â  âThe settlement reflects the reality that  individuals and entities that exploit workers will be held accountable by the  government.âÂ
U.S.  Department of Commerce Inspector General Todd Zinser commended the cooperative  effort by the staffs of the U.S. Attorneyâs for the Northern District of Georgia,  the U.S. Department of Labor Office of Inspector General and the Commerce  Department OIG to ensure APL was held accountable for funds it received under  the American Recovery and Reinvestment Act of 2009.Â  Zinser also noted the importance of Federal Whistleblower  laws that led to the revelations of APL underpaying its workers.
Special Agent in Charge  Richard L. Walker of the U.S. Department of Labor, Office of Inspector General,  Office of Labor Racketeering and Fraud Investigations stated, âThis case is a  great example of the OIG's work with its law enforcement partners to actively  investigate fraud involving federal contracts, including the filing of false  payroll records to facilitate cheating workers of their earned wages.â
The relevant conduct arose in  connection with the American Recovery and Reinvestment Act of 2009 (the  âRecovery Actâ), which was enacted to stimulate the economy and create jobs by  funding infrastructure projects.Â   Pursuant to a Recovery Act initiative known as the Broadband Technologies  Opportunities Program (âBTOPâ), the federal government provided the U.S.  Department of Commerce with $4.7 billion to promote, through grants, the  deployment of broadband infrastructure â e.g., miles of fiber-optic cable and supporting structures â throughout North  Georgia.Â
To effectuate the Recovery  Actâs goal of providing high wage jobs, contractors on BTOP projects were  required to comply with the Davis-Bacon Act, which requires that workers be  paid not less than the applicable prevailing wage, which is set by the U.S.  Department of Labor, and can be fulfilled by providing the applicable wage in  all cash, or through a combination of cash and bona fide fringe benefits.Â
In late 2010, APL was awarded  a BTOP subcontract to assist with broadband projects in North Georgia, and the  company repeatedly acknowledged â and promised to comply with â the projectsâ  Davis-Bacon Act requirements.Â  The False  Claims Act lawsuit alleges that, despite these repeated promises, in order to  increase their own profit margins and/or bonuses, APL, Robertson and Piccione â  over an extended period of time â deliberately underpaid certain workers by  approximately $10.00 per hour.Â
The lawsuit further alleges  that, to conceal the underpayments, APL, Robertson and Piccione submitted  fictitious payroll documentation, which falsely represented that workers were  receiving approximately $10.00 per hour in training and uniforms, which they  erroneously characterized as fringe benefits.Â   In truth, however, no such training or uniforms were provided to  workers, and these items did not even qualify as fringe benefits under the  criteria set forth by the Wage and Hour Division of the U.S. Department of  Labor.Â
This civil settlement resolves  a lawsuit filed by a former APL employee under the qui tam, or whistleblower,  provisions of the False Claims Act, which allow private citizens to bring civil  actions on behalf of the United States and share in any recovery obtained.Â  The case, pending in the Northern District of  Georgia, is filed under United States of  America ex rel., v. Advanced Power & Lighting, Richard Lee Robertson and  Greg Piccione, et. al., Civ. No. 1:12-cv-3825-AT (N.D. Ga. Nov. 1,  2012).Â  The claims settled in the civil  settlement are claims only, and there has been no determination of liability.
The case was investigated by  the United States Attorneyâs Office for the Northern District of Georgia; the  U.S. Department of Labor, Office of the Inspector General; and the U.S.  Department of Commerce, Office of the Inspector General.
This matter was handled for  the United States by Assistant United States Attorney Paris A. Wynn.
For  further information please contact the U.S. Attorneyâs Public Affairs Office at USAGAN.PressEmails@usdoj.gov or (404)  581-6016.Â  The Internet address for the  home page for the U.S. Attorneyâs Office for the Northern District of Georgia  Atlanta Division is http://www.justice.gov/usao/gan/.
Return to Top
Report a
Crime
Get a Job
Find Help and
Information for Crime Victims
Apply for a Grant
Identify
Our Most Wanted Fugitives
Report and
Identify Missing Persons
Locate a Prison,
Inmate, or Sex Offender
Find Sales of Seized
Property
Contact the US Attorney's Office
Special Page
Making sure that victims of federal crimes are treated with compassion, fairness and respect
Training and seminars for Federal, State, and Local Law Enforcement Agencies.
Prescription Drug Abuse
Home
About
Our Office
FAQ's
News
Press Releases
Meet the US Attorney
Divisions & Branch Offices
Criminal
Civil
Administrative
Programs
LECC
PSN
Information for Victims & Witnesses
Weed & Seed
CAREERS
CONTACT
Telephone
Mail
Webmaster
Site Map
Accessibility
FOIA
Privacy Policy
Legal Policies &
Disclaimers
Justice.gov
USA.gov